No. 19-

 

IN THE
Supreme Court of the United States

JAMES JOSEPH GARNER,
Petitioner,
v.
COLORADO,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of Colorado

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 15th day of July 2019,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on the below-named counsel by first-class mail, postage prepaid, and
further certifies that all persons required to be served have been served:

Phil Weiser

Colorado Attorney General

Jillian J. Price

Assistant Attorney General

Ralph L. Carr Colorado Judicial Center
1300 Broadway, 9th Floor

Denver, CO 80203

Telephone: (720) 508-6000
attorney.general@coag.gov

jillian. price@coag.gov

Brian H. Fletcher
Counsel for Petitioner
